No. ________

IN THE

Supreme Court of the United States
HSBC HOLDINGS PLC, CITIGROUP GLOBAL MARKETS LIMITED, FIRST PENINSULA
TRUSTEES LIMITED, AND BA WORLDWIDE FUND MANAGEMENT, ET AL.,

Petitioners,
v.

IRVING H. PICARD,

Respondent.
ON APPLICATION FOR EXTENSION OF TIME TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
DECLARATION OF SERVICE
CLEARY GOTTLIEB STEEN &
HAMILTON LLP
Thomas J. Moloney
Counsel of Record
Jessa DeGroote
Joseph M. Kay
David Z. Schwartz
One Liberty Plaza
New York, New York 10006
212-225-2000

FRESHFIELDS BRUCKHAUS DERINGER
US LLP
Timothy P. Harkness
David Y. Livshiz
601 Lexington Avenue, 31st Floor
New York, NY 10022
212-277-4000

PIERCE BAINBRIDGE BECK PRICE &
HECHT LLP
Franklin B. Velie
Jonathan G. Kortmansky
277 Park Ave, 45th Floor
New York, New York 10172
212-484-9866

CLEARY GOTTLIEB STEEN &
HAMILTON LLP
Carmine D. Boccuzzi, Jr.
E. Pascale Bibi
One Liberty Plaza
New York, New York 10006
212-225-2000

Counsel for Petitioners

I, Brendan Cyr, hereby declare, pursuant to 28 U.S.C. § 1746 and Rule 29.5(c) of
the Rules of this Court, that on the 28th day of May 2019, I caused a true copy of the Petitioners’
Application for Extension of Time to File a Petition for a Writ of Certiorari to the United States
Court of Appeals for the Second Circuit to be served by Federal Express, Overnight Delivery, for
next business day delivery and an electronic copy of same to be served by electronic mail upon
each of the following:
Roy T. Englert, Jr., Esq.
D. Hunter Smith, Esq.
Robbins, Russell, Englert, Orseck, Untereiner & Sauber LLP
2000 K Street, NW, 4th Fl.
Washington, D.C. 20006
renglert@robbinsrussell.com
hsmith@robbinsrussell.com
David J. Sheehan, Esq.
Seanna R. Brown, Esq.
Torello H. Calvani, Esq.
Baker & Hostetler LLP
45 Rockefeller Plaza
New York, New York 10111
dsheehan@bakerlaw.com
sbrown@bakerlaw.com
tcalvani@bakerlaw.com
Howard L. Simon, Esq.
Windels Marx Lane & Mittendorf, LLP
156 West 56th Street
New York, New York 10019
hsimon@windelsmarx.com
Matthew B. Lunn, Esq.
Young Conaway Stargatt & Taylor, LLP
Rockefeller Center
1270 Avenue of the Americas, Suite 2210
New York, New York 10020
mlunn@ycst.com

Attorneys for Respondent

2

Kevin H. Bell, Esq.
Nathanael S. Kelley, Esq.
Securities Investor Protection Corporation
1667 K Street, N.W., Suite 1000
Washington D.C. 20006
kbell@sipc.org
nkelley@sipc.org

Attorneys for Securities Investor Protection Corporation
Pursuant to Rule 29.5 of the Rules of this Court I hereby certify that all parties
required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Dated:

New York, New York
May 28, 2019

/s/Brendan Cyr
Brendan Cyr

3

